Supreme Court of the United States

BECKER GALLAGHER
8

r i e fs

and

C'E:f{ffFJCATE OF SERVICE

United States Courts of Appeals

I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Retirement
Plans Committee of IBM, et al. v. Larry W. Jander, et
al., was sent via Next Day Service to the U.S. Supreme
Court, and 3 copies were sent via e-mail service to the
following parties listed below, this 1st day of
September, 2020:
Samuel Ethan Bonderoff
Zamansky, LLC
50 Broadway, 32nd Floor
New York, NY 10004
(212) 742-1414
samuel@zamansky.com
Counsel for Respondents
Paul D. Clement
Counsel of Record
George W. Hicks, Jr.
C. Harker Rhodes IV
Andrew C. Lawrence
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland .com
Lawrence Portnoy
Michael S. Flynn
David B. Toscano
Zachary A. Kaufman
DAVIS POLK & WARDWELL LLP
450 Lexington Ave.
New York, NY 10017
Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor' s Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

I www.beckergallagher.com

All parties required to be served have been
served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 1, 2020.

;::bing,

Donna J. Wolf U
Becker Gallagher Leg:
Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

Notary Pubic, te ol Otllo
My Commisaloli Expires
February 14, 2023

